                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              COMPLAINT AGAINST SOUTHWEST TEXAS
                                              JUNIOR COLLEGE COMMUNITY-BASED JOB
                                              TRAINING GRANT WAS UNSUBSTANTIATED




                                                              Date Issued: September 27, 2007
                                                              Report Number: 06-07-008-03-390
U.S. Department of Labor                               September 2007
Office of Inspector General
Office of Audit                                        COMPLAINT AGAINST SOUTHWEST TEXAS
                                                       JUNIOR COLLEGE COMMUNITY-BASED
                                                       JOB TRAINING GRANT WAS
BRIEFLY…                                               UNSUBSTANTIATED
Highlights of Report Number: 06-07-008-03-390, to
                                                       WHAT OIG FOUND
the Assistant Secretary for Employment and
Training.                                              The OIG found no evidence that the SimMan Patient
                                                       Simulator equipment purchased for the LVN lab was
                                                       too sophisticated for the LVN students’ skill level. In
WHY READ THE REPORT                                    addition, we found no evidence that DOL funds were
                                                       improperly used to purchase computer projection
The Office of Inspector General (OIG) performed an     equipment for the ADN program.
audit resulting from a complaint against Southwest
Texas Junior College (SWTJC) officials. The            We determined that, while SWTJC has not achieved
complaint alleged that SWTJC officials improperly      its goal of establishing the ADN program, the grant
used U.S. Department of Labor (DOL) funds to           is ongoing through October 2008, and SWTJC was
purchase inappropriate equipment. The complaint        making progress in the program’s development and
also alleged SWTJC officials never intended to have    implementation.
a Registered Nurse (RN) program, also known as
Advanced Degree in Nursing (ADN) program.
                                                       WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT                                  We have no recommendations as a result of this
                                                       audit.
The purpose of the audit was to answer the following
questions:                                             SWTJC concurred with our findings and did not
                                                       provide comments.
    •   Was the highly computerized SimMan
        Patient Simulator equipment purchased for
        the Licensed Vocational Nurse (LVN) lab too
        sophisticated for the skill level of the
        students?

    •   Were DOL funds improperly used to
        purchase computer projection equipment for
        the ADN program?

    •   Has SWTJC achieved the goal of
        establishing the ADN program?


READ THE FULL REPORT
To view the report, including the scope and
methodology, go to:

http://www.oig.dol.gov/public/reports/oa/2007/06-
07-008-03-390.pdf
                                                       Complaint Against Southwest Texas Junior College
                                                  Community-Based Job Training Grant was Unsubstantiated



Table of Contents
                                                                                                                       PAGE

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

RESULTS ....................................................................................................................... 6

    Allegation that SimMan Patient Simulator Was Too Sophisticated
    For Student Skill-Level was Unsubstantiated ....................................................... 6

    Allegation that DOL Funds Were Improperly Used to Purchase
    Computer Projection Equipment for the Advanced Degree in
    Nursing Program was Unsubstantiated................................................................. 6

    Allegation that SWTJC has not Established the Advanced Degree
    in Nursing Program was Unsubstantiated............................................................. 7


APPENDICES ................................................................................................................. 9

    A. Background ....................................................................................................... 11

    B. Objectives, Scope, Methodology, and Criteria ............................................... 13

    C. Acronyms and Abbreviations........................................................................... 15

    D. Auditee Response ............................................................................................. 17




U.S. Department of Labor—Office of Inspector General                                                                           1
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated




                     [THIS PAGE INTENTIONALLY LEFT BLANK]




2                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-07-008-03-390
                                                Complaint Against Southwest Texas Junior College
                                           Community-Based Job Training Grant was Unsubstantiated



Executive Summary
We conducted a limited scope performance audit of the Southwest Texas Junior
College (SWTJC) as a result of a complaint received by the Office of Inspector General
(OIG). SWTJC, located in Uvalde, Texas, currently has a $1.9 million Department of
Labor (DOL) Community-Based Job Training grant, which is a rural healthcare initiative,
for the period of November 1, 2005, through October 31, 2008. .

Our audit objective was to determine if the specific allegations contained in the
complaint with respect to SWTJC officials’ improper use of DOL funds to purchase
inappropriate equipment, and their intention to not have a Registered Nurse (RN)
program1 could be substantiated. From our review of the complaint, we developed the
following three subobjectives:

    1. Was the highly computerized SimMan Patient Simulator equipment purchased
       for the Licensed Vocational Nurse (LVN) lab too sophisticated for the skill level of
       the students?

    2. Were DOL funds improperly used to purchase computer projection equipment for
       the Advanced Degree in Nursing (ADN) program?

    3. Has SWTJC achieved the goal of establishing the ADN program?

Results

The OIG determined the allegations against SWTJC were unfounded. Specifically:

We found no evidence to substantiate that the SimMan Patient Simulator equipment
purchased was too sophisticated for the LVN students’ skill level. The grant allowed the
purchase of the SimMan Patient Simulators and computer projection equipment.
SWTJC purchased three SimMan Patient Simulators for the purpose of being used as a
training aid in lieu of live patients. This computerized equipment can be adjusted to the
skill level—LVN or RN—related to the class being taught. The computer projection
equipment is being used for distance training for the allied health programs. The ADN
program will be part of the allied health programs, and therefore, computer projection
equipment purchased for it is appropriate. The grant is ongoing through October 2008,
and SWTJC was making progress in the development and implementation of the ADN
program.



1
 The grant refers to development of an ADN program. The allegation refers to the RN program. According to the
grant, the ADN program will provide a skilled RN workforce. Therefore, the RN program is the same as the ADN
program. In this report the training program is referred to as ADN program.

U.S. Department of Labor—Office of Inspector General                                                            3
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated




Grantee Response

The grantee concurred with our findings and did not provide comments.



OIG Conclusion

The OIG concludes the allegations were not substantiated. Further, because there are
no recommendations made, the audit is closed.



Recommendations

OIG found the allegations were not substantiated; therefore, we have no
recommendations.




4                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated




U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report



Ms Emily Stover DeRocco
Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210


We conducted an audit of SWTJC’s Community-Based Job Training grant as a result of
a complaint received by the OIG. Our audit objective was to determine if the specific
allegations contained in the complaint with respect to SWTJC officials’ improper use of
DOL funds to purchase inappropriate equipment and their intention to not have an ADN
program could be substantiated. Specifically, we determined:

   1. Was the highly computerized SimMan Patient Simulator equipment purchased
      for the LVN lab too sophisticated for the skill level of LVN students?

   2. Were DOL funds improperly used to purchase computer projection equipment for
      the ADN program?

   3. Has SWTJC achieved the goal of establishing the ADN program?

We conducted the audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Our objectives, scope, methodology, and criteria are
detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                     5
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated



Results
Objective 1: Was the highly computerized SimMan Patient Simulator equipment
             purchased for the LVN lab too sophisticated for the skill level of LVN
             students?

We found no evidence to substantiate that the SimMan Patient Simulator equipment
purchased was too sophisticated for the LVN students’ skill level. The SimMan Patient
Simulator is a computerized mannequin that is used as a training aid in lieu of live
patients. It can be programmed to simulate many patient symptoms and medical
conditions and can be adjusted to the skill level of the student, whether in the LVN or
ADN program. Further, SWTJC’s purchase of the equipment was part of the grant
statement of work and the proposed budget. Because the cost of the three SimMan
Patient Simulators purchased totaled over $5,000, SWTJC requested prior approval
from the Employment and Training Administration (ETA), which was approved through a
grant modification.


Objective 2: Were DOL funds improperly used to purchase computer projection
             equipment for the ADN program?

The allegation correctly stated that DOL funds were used to purchase computer
projection equipment for the ADN program. However, OIG determined the purchase,
which is video conferencing equipment, to be appropriate and, therefore, the allegation
unfounded.

The ADN program will be part of SWTJC’s allied health programs. SWTJC uses the
video conferencing equipment it purchased, for distance training for the allied health
programs. The grant’s statement of work explained the need for the video conferencing
equipment and the grant’s budget included the cost of its purchase. Because the cost
of the equipment purchased totaled over $5,000, SWTJC requested prior approval from
ETA, which was approved through a grant modification.

We identified all equipment purchases from the grant’s financial records and visited all
training sites to account for the equipment. Additionally, we interviewed 10 LVN
graduates who confirmed the use of the video conferencing equipment for distance
learning.




6                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated




Objective 3: Has SWTJC achieved the goal of establishing the ADN program?



We determined that, while SWTJC had not achieved its goal of establishing the ADN
program, evidence shows that SWTJC was making progress in the program’s
development and implementation. Therefore, the allegation is unfounded.

In interviews with SWTJC officials, we received assurances of their intent to develop
and implement the ADN program. In addition, we noted documentation that supports
SWTJC’s progress in development of the ADN program. At a May 17, 2007 meeting of
the SWTJC Board of Trustees (Board), the ADN director and the Technical Programs
director presented a formal application plan for the ADN program (titled the Associate of
Applied Science in Nursing Degree.) The Board approved the application for
submission to the next level in the approval process, which is the Texas Higher
Education Coordinating Board. SWTJC’s web site lists the ADN program, pending state
approval, starting in the 2008 spring semester. In addition, ETA has conducted a site
visit on this grant, and is monitoring the progress of the program’s development.

Grantee Response

The grantee concurred with our findings and provided no comments.


OIG Conclusion

The OIG concludes the allegations were not substantiated. Further, because there are
no recommendations made the audit is closed.


Recommendations

OIG found the allegations were not substantiated. Therefore, we have no
recommendations.




Elliot P. Lewis
May 18, 2007




U.S. Department of Labor—Office of Inspector General                                     7
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated




                     [THIS PAGE INTENTIONALLY LEFT BLANK]




8                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated




Appendices




U.S. Department of Labor—Office of Inspector General                                     9
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated




                     [THIS PAGE INTENTIONALLY LEFT BLANK]




10                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated


                                                                             APPENDIX A
BACKGROUND


ETA awarded a Community-Based Job Training Grant to SWTJC in the amount of
$1,929,645 for the period of November 1, 2005, through October 31, 2008. The
proposal for the project, incorporated in the grant as the statement of work, was a rural
healthcare initiative. Among the goals of the grant is the expansion of LVN training slots
by eight positions and the development and implementation of an ADN program.

Included in the grant was the proposed purchase of SimMan Patient Simulators and
distance learning equipment. The SimMan Patient Simulator is a computerized
mannequin that is used as a training aid in lieu of live patients. The SimMan can be
programmed to simulate many patient symptoms and medical conditions and can be
adjusted to the skill level of the student, whether in the LVN or ADN program. The
SWTJC area covers 11 rural counties and there are a limited number of healthcare
facilities for the students to obtain practical clinical experience with live patients.
Further, many of the more seriously ill patients are transported to urban hospitals, such
as in San Antonio, so the students will not have contact with the more complex patient
illnesses and medical conditions. The SimMan can be programmed so the patients can
encounter the more complex conditions to gain experience that would not normally be
available to them. SWTJC offers classroom instruction at the main campus in Uvalde
and four other rural sites. The use of distance learning equipment alleviates SWTJC the
cost of hiring instructors each site.




U.S. Department of Labor—Office of Inspector General                                    11
Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated




                      [THIS PAGE INTENTIONALLY LEFT BLANK]




U.S. Department of Labor—Office of Inspector General                                    12
Report Number: 06-07-008-03-390
                                                Complaint Against Southwest Texas Junior College
                                           Community-Based Job Training Grant was Unsubstantiated

                                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives

Our audit objective was to determine if the specific allegations contained in the
complaint with respect to SWTJC officials’ improper use of DOL funds to purchase
inappropriate equipment, and their intention to not have a RN program2 could be
substantiated. Specifically, we determined:

    1. Was the highly computerized SimMan Patient Simulator equipment purchased
       for the LVN lab too sophisticated for the skill level of the students?

    2. Were DOL funds improperly used to purchase computer projection equipment for
       the ADN program?

    3. Has SWTJC achieved the goal of establishing the ADN program?

Scope

Our audit was limited to reviewing and obtaining sufficient evidence necessary to
address the allegations. Specifically, we audited purchases related to the SimMan
Patient Simulator and computer projection equipment, as well as their intended
purposes. Regarding the grant’s program goals, we audited SWTJC’s documented
efforts made toward establishing an ADN program. We conducted the audit in
accordance with Generally Accepted Government Auditing Standards for performance
audits.

We performed our fieldwork at SWTJC in Uvalde, Texas and its surrounding training
sites from May 14, 2007, through May 18, 2007.

Methodology

As part of the review, we:

    •   Interviewed cognizant SWTJC officials, including the ADN and LVN directors;

    •   Reviewed grant award and related documents




2
 The grant refers to development of an ADN program. The allegation refers to the RN program. According to the
grant, the ADN program will provide a skilled RN workforce. Therefore, the RN program is the same as the ADN
program. In this report the training program is referred to as the ADN program.
U.S. Department of Labor—Office of Inspector General                                                        13
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated


     •   Identified SimMan Patient Simulator and computer projection equipment
         purchased with grant funds, reviewed supporting procurement-related
         documentation, and traced equipment to its physical location;

     •   Interviewed former LVN students about the use and benefit of the SimMan
         Patient Simulator and computer projection equipment; and

     •   Obtained documentation, such as SWTJC’s Board of Trustees approval of the
         ADN program application for submission to the Texas Higher Education Board,
         which supports the progress of SWTJC’s development and implementation of the
         ADN program.


Criteria

DOL Community-Based Job Training Grant Number CB-15221-06-60.




14                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated

                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS

ADN         Associate Degree in Nursing
Board       SWTJC Board of Trustees
DOL         Department of Labor
ETA         Employment and Training Administration
LVN         Licensed Vocational Nurse
RN          Registered Nurse
OIG         Office of Inspector General
SWTJC       Southwest Texas Junior College




U.S. Department of Labor—Office of Inspector General                                    15
Report Number: 06-07-008-03-390
Complaint Against Southwest Texas Junior College
Community-Based Job Training Grant was Unsubstantiated




                     [THIS PAGE INTENTIONALLY LEFT BLANK]




16                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 06-07-008-03-390
                                          Complaint Against Southwest Texas Junior College
                                     Community-Based Job Training Grant was Unsubstantiated


                                                                             APPENDIX D
AUDITEE RESPONSE TO DRAFT REPORT


The grantee concurred with our findings and provided no comments.




U.S. Department of Labor—Office of Inspector General                                    17
Report Number: 06-07-008-03-390
